DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General

       110′/123′ Maritime Patrol Boat
           Modernization Project
            United States Coast Guard




OIG-07-27                       February 2007
                                                                                Office of Inspector General

                                                                                U.S. Department of Homeland Security
                                                                                Washington, DC 20528




                                        February 9, 2007

MEMORANDUM FOR:                Admiral Thad W. Allen
                               Commandant
                               United States Coast Guard


FROM:                          Richard L. Skinner
                               Inspector General

SUBJECT:                       OIG Complaint Case Number 06-14270: 110′/123′ Maritime Patrol
                               Boat Modernization Project, United States Coast Guard

On February 10, 2006, our office received a Hotline Complaint alleging that the Coast Guard's 123-
foot Island Class Patrol Boats (123' cutter) and short-range prosecutor (prosecutor) contained safety
and security vulnerabilities. The 123' cutter is a modification of the 110' Island Class patrol boat and
was phased into service as part of the Deepwater project. The original Deepwater plan projected the
conversion of forty-nine 110' patrol boats into 123' patrol boats as a bridging strategy to meet patrol
boat needs until the new Fast Response Cutter was introduced. The prosecutor is a 24' 6" small boat
that can be deployed from the National Security Cutter, Fast Response Cutter, and Offshore Patrol
Cutter. The revised Deepwater Implementation Plan calls for the acquisition of 91 prosecutors. The
complaint said that these vulnerabilities were the result of the contractor's failure to comply with
Command, Control, Communications, Computer, Intelligence, Surveillance, and Reconnaissance
(C4ISR) design requirements as defined in the Deepwater contract. Specifically, the complainant
alleged that:

•   The safety of the 123′ cutter's crew was compromised by the contractor's failure to utilize low
    smoke cabling;
•   The contractor knowingly installed aboard the 123′ cutter and prosecutor external C4ISR
    equipment that did not meet specific environmental requirements outlined in the Deepwater
    contract;
•   The cable installed during the upgrade to the cutter's C4ISR system represented a security
    vulnerability; and,
•   The video surveillance system installed aboard the 123′ cutter does not meet the cutter's physical
    security requirements.
Finally, the complainant provided information detailing his attempts, over a 2 ½ year period, to
compel the contractor to comply with Deepwater contract requirements.




                      110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
On February 16, 2006, we began our inquiry into the allegations of the hotline complaint. We
analyzed documentation, reviewed test reports, conducted interviews, and attended briefings by key
Deepwater Program staff. We also examined TEMPEST test results to determine the extent to which
the C4ISR systems installed aboard the 123' cutters met TEMPEST certification standards.
TEMPEST is an unclassified short name referring to investigations and studies of compromising
emanations. Compromising emanations are unintentional intelligence-bearing signals that, if
intercepted and analyzed, will disclose classified information when they are transmitted, received,
handled, or otherwise processed by any information processing equipment. The Coast Guard was
responsive to all of our requests for interviews, briefings, information, and documentation requests
associated with our review.


Current Status of 123' Cutter Fleet
For reasons unrelated to the issues identified in this report, operations of the 123' cutter fleet have
been suspended. On November 30, 2006, the Coast Guard announced that it was suspending
operations of all eight 123' cutters due to the continuing deformation of the hulls that in some
instances resulted in hull breaches. These problems had previously resulted in the implementation of
operating restrictions that severely undermined the mission effectiveness of 123' cutter fleet.
However, these operating restrictions did not resolve the hull deformation problem but rather
mitigated their impact on crew safety. Consequently, the Coast Guard had to consider whether to
implement additional operational restrictions in order to meet minimum crew safety requirements or
to suspend 123' cutter operations until a solution to these problems could be identified and
implemented. The Coast Guard determined that additional operating limitations would have further
undermined the operational effectiveness of the 123' cutter. For these reasons, 123' cutter fleet were
withdrawn from service. Although the cutter operations have been suspended, the Coast Guard has
not yet determined the final disposition of the 123' cutter fleet.


Results of Review

Aspects of the C4ISR equipment installed aboard the 123′ cutters do not meet the design standards set
forth in the Deepwater contract. Specifically, two of the four areas of concern identified by the
complainant were substantiated and are the result of the contractor not complying with the design
standards identified in the Deepwater contract. For example, the contractor did not install low smoke
cabling aboard the 123' cutter, despite a Deepwater contract requirement that stated, “all shipboard
cable added as a result of the modification to the vessel shall be low smoke.” The intent of this
requirement was to eliminate the polyvinyl chloride jacket encasing the cables, which for years
produced toxic fumes and dense smoke during shipboard fire. Additionally, the contractor installed
C4ISR topside equipment aboard both the 123' cutters and prosecutors, which either did not comply or
was not tested to ensure compliance with specific environmental performance requirements outlined
in the Deepwater contract.

The remaining two areas of concern identified by the complainant were in technical compliance with
the Deepwater contract and deemed acceptable by the Coast Guard. Specifically, while the type of
cabling installed during the C4ISR system upgrade to the 123’ cutter was not high-grade braided
cable; the type of cable used met the Coast Guard's minimum-security standards as required by the


                      110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                     Page 2
Deepwater contract. Concerning the installation of the video surveillance system, while the system
did not provide 360 degrees of coverage, it met minimum contract requirements. Specific concerns
identified in the complaint are discussed below.

Low Smoke Cabling (123′ Cutter). — Low smoke cabling was not used during the installation of
the C4ISR systems aboard the 123′ cutter, despite a Deepwater contract requirement that “all
shipboard cable added as a result of the modification to the vessel shall be low smoke.” Although the
contractor had previously requested a deviation from the low smoke requirements during May 2004,
the request was not approved until December 2004. By then, several 123′ cutters had been delivered
and accepted by the Coast Guard.

The contractor indicated in its May 2004 request for deviation that approximately 680 cables (or 85
cables per cutter) did not meet the low smoke requirements identified in the contract, because the
“cables are either vendor provided as part of the equipment suite, are vendor proprietary, and/or are
not available in a low smoke configuration.” (See Enclosure 2.) The contractor's request for a
deviation from the low smoke cable requirement identified the cable, its type, and its function. It did
not, however, indicate the flammability and toxicity characteristics of the sub-standard cables
installed. As a result: (1) the contractor installed non low smoke cable aboard at least four 123′
cutters before receiving a Coast Guard approved deviation from the low smoke cable requirements;
(2) the contractor incorrectly self-certified compliance with low smoke requirements; and (3) the
Coast Guard did not exercise due diligence in determining the flammability and toxicity
characteristics of the replacement cables being installed prior to issuance of the deviation.

C4ISR Topside Equipment Installations (123′ Cutter and Short Range Prosecutor). —The
contractor installed C4ISR topside equipment aboard the 123′ cutter and prosecutor that do not meet
minimum design and performance requirements as specified in the Deepwater contract. Specifically,
30 C4ISR system components were installed aboard the 123′ cutter and 12 C4ISR system components
were installed aboard the prosecutor that do not meet environmental requirements. Additionally, the
contractor self-certified that the C4ISR system components installed aboard the 123′ cutter and
prosecutors fleets complied with the contract environmental performance standards when, in fact,
they did not.

According to the Deepwater contract, the topside equipment aboard the 123′ cutters and prosecutors
were required to meet the environmental performance specifications as defined by the Cutter
Certification Matrix and the prosecutor performance specifications. The purpose of these
requirements was to ensure that the C4ISR systems installed aboard the 123′ cutters and prosecutors
remained fully operational when operated under extreme weather, sea, and atmospheric conditions.
This is a critical requirement given the Coast Guard's propensity to operate their cutters and small
boats under such conditions.

In the case of the 123′ cutter Matagorda, the contractor incorrectly indicated on the self-certification
documentation that there were no applicable requirements stipulated in regard to weather environment
requirements, and that the certification is “not really beneficial.” (See Enclosure 3.) However, the
self-certification documentation references MIL-STD 1399C, Section 302, as the weather
environment standard for certification requirements, which clearly stipulates minimum and maximum
weather environment limits. (See Enclosure 4.) Additionally, the certificates of conformance
provided with the eight 123′ cutters and eight prosecutors did not indicate that the Coast Guard had


                      110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                     Page 3
previously approved any deviation or waiver from the environmental performance requirements
identified in the contract. According to the Coast Guard, they were unaware that the 123′ cutters and
prosecutors were not compliant with the environmental performance specifications until July 2005.
By then, seven 123' cutters had been delivered to and accepted by the Coast Guard. A working group
composed of contract and Coast Guard personnel was subsequently established to resolve these
contract discrepancies. To date, these discrepancies remain unresolved.

On August 29, 2006, Coast Guard received a letter from the contractor indicating that the C4ISR
topside equipment installed aboard the 123′ cutters and the prosecutors either did not meet minimum
environmental requirements as specified in the Deepwater contract or had not been evaluated against
environmental performance requirements specified in the Deepwater contract prior to installation.
According to the contractor, testing each of these components would be “time consuming, expensive,
and of limited value.” Instead the contractor stated its intention to submit Request For Waivers for
each of the topside components whose performance either did not meet contract requirements or had
not been evaluated against contract environmental performance requirements. The contractor stated
that the Request For Waivers presented “an acceptable and reasonable approach, since most of the
environmental specifications guard against weather conditions the 123′ [cutter] and [prosecutors] will
likely never experience in their assigned duties, and due to the fact the environmental requirements
were clarified after the 123′ [cutters] were produced and deployed.” (See Enclosure 5.)

However, we identified the following facts and circumstances:

•   The C4ISR topside equipment requirements for the 123′ cutter were clearly defined in the Cutter
    Certification Matrix. If the contractor was unclear about the requirements, it was incumbent on
    them to obtain the necessary clarification before purchasing, installing, and certifying the
    installation as meeting the requirements;
•   At the time the topside equipment was purchased and installed, the Coast Guard planned to deploy
    the 123′ cutters and prosecutors along the U.S. Atlantic, Pacific, and Gulf coasts. The contractor
    could not have known that structural design problems would later force the Coast Guard to deploy
    all eight 123′ cutters to Key West, Florida; and
•   The Coast Guard's original and revised Deepwater Implementation Plans called for the acquisition
    of at least 91 prosecutors, the majority of which were to be deployed aboard the 123′ cutter, the
    National Security Cutter, and the Fast Response Cutter. These cutters were originally intended to
    form the nucleus of the Coast Guard's Deepwater surface fleet. Given the Coast Guard's intention
    to deploy the National Security Cutter and Fast Response Cutter (or its replacement), offshore
    along the U.S. Atlantic, Pacific, and Gulf coasts, the contractor's assertion that prosecutors would
    not be operated in areas where severe environmental conditions could affect performance, is not
    accurate.

    To date, the Coast Guard has not indicated whether they will grant the contractor's request for
    waiver. Regardless of their decision, the outcome is unlikely to be satisfactory. For example,
    should the Coast Guard decide to enforce the contract, 123′ cutters, and to a lesser extent the
    prosecutors, will have to be withdrawn from service while the necessary modifications are made,
    further exacerbating the patrol boat capability gap. However, should the Coast Guard grant the
    contractor's request for waiver, they will be accepting the additional crew safety and operational



                      110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                     Page 4
   limitations associated with the operation of equipment that does not meet Deepwater contract or
   Deepwater mission requirements.

Shielded Cable (123' Cutter). — The contractor used Aluminum/Mylar shielded cable as part of the
cutter upgrade. While the installation of this type of cable met minimum Deepwater contract
requirements for shielded cable, it does not have the mechanical durability afforded braided metallic
shielded cable. According to Coast Guard, Aluminum/Mylar shielded cable is not as good as braided
cable for applications required to meet TEMPEST requirements. However, the contract required the
use of only “shielded” - not “braided metallic shielded” - cable, as recommended by the National
Security Telecommunications and Information Systems Security Advisory Memorandum
TEMPEST/2-95, RED/BLACK Installation Guidance: “To reduce radiation of CE [compromising
emissions], metallic cables should have a minimum of one overall braided metallic shield, with the
shield terminated at both ends to the grounding network.”

The Coast Guard noted in its visual inspection of the first 123′ cutter (Matagorda), that the
Aluminum/Mylar cable might pose a TEMPEST hazard. However, the Coast Guard elected to accept
the risk associated with this type of shielded cable.

The complaint also alleged that the use of non-braided cable would limit the 123’ cutter’s ability to
meet TEMPEST testing requirements. However, TEMPEST testing conducted on the Matagorda and
Padre between February 2004 and July 2006 indicated the cabling installed during the C4ISR upgrade
was not a source of compromising emissions.

Video Surveillance System (123' Cutter). — The video surveillance system currently installed on
the 123′ cutter does not provide a 360-degree field of view. According to the Coast Guard, the Cutter
performance specification contained in the Deepwater contract specified only that a video
surveillance system be installed. It did not state the number of cameras to be installed or a
requirement that the system provide 360-degrees of coverage. As a result, the installation consists of
a four-camera system (with coverage gaps) that meets minimum Deepwater contract requirements but
may not meet all of the 123’ cutter’s surveillance and security requirements. According to Coast
Guard, the current configuration of the video surveillance system, supplemented by the intrusion
detection alarm system, satisfies its cutter surveillance and security requirements. We are concerned
that:

• The contractor would knowingly design and install a video surveillance system aboard the 123′
  cutter that had coverage gaps, which could cause security vulnerabilities; and
• That the Coast Guard would accept delivery of a shipboard video surveillance system containing
  such vulnerabilities.

We are also concerned that vague and unspecified requirements in the Deepwater contract could lead
to the installation of video surveillance systems aboard the National Security Cutter, Fast Response
Cutter, and Offshore Patrol Cutter that meet Deepwater contract requirements but contain similar
security vulnerabilities. If the Coast Guard believes that the video surveillance systems aboard its
Deepwater cutters should provide 360-degrees of coverage, they should ensure that future Deepwater
contracts reflect that requirement.




                     110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                    Page 5
Conclusions and Recommendations
Our review raises many concerns about Coast Guard's program and technical oversight of the
Deepwater contractor responsible for the 110′/123′ Modernization Project. For example, the
contractor purchased and installed hundreds of non low smoke cables prior to Coast Guard's approval
of the Request for Deviation. Additionally, we are concerned that Coast Guard accepted delivery and
operated four 123' cutters without knowing the extent of the hazards associated with the use of the
non low smoke cabling. The contractor also purchased and installed hundreds of C4ISR topside
components aboard the 123’ cutter and prosecutor knowing that they either did not meet contract
performance requirements or compliance with the requirements had not been verified. Had Coast
Guard reviewed the contractor's self-certification documentation the fact that the contractor had not
complied with the stated weather environment standard would not have escaped its attention. For
these reasons, we are concerned that similar safety and performance issues could impact the
operational effectiveness of C4ISR system upgrades recently installed aboard its legacy fleet of
cutters.

To address the contract execution and technical oversight concerns and to help prevent similar issues
from occurring in the future, we recommend to the Commandant, U.S. Coast Guard:

1. Investigate and address the low smoke cabling and C4ISR topside equipment installation issues
   identified in the Hotline Complaint. The response should include a description of the
   circumstances and conditions underlying these issues as well as the steps being taken or
   contemplated by the Coast Guard to prevent similar technical oversight issues from affecting the
   remaining surface assets to be modernized or acquired through the Deepwater Program.

2. Develop and implement a plan to improve the process for reviewing and adjudicating contractor
   Requests for Deviations/Waivers. The plan should ensure that all waiver requests are resolved
   prior to implementation and that the rationale underlying these decisions is formally documented.


Management Comments and OIG Analysis
We obtained written comments on the draft of this report from the Coast Guard on January 31, 2007.
In its comments, the Coast Guard concurred with principle findings of this report as well as the two
recommendations. We have included a copy of the comments in their entirety in Enclosure 1 of this
report.

Recommendation #1:
Investigate and address the low smoke cabling and C4ISR topside equipment installation issues
identified in the Hotline Complaint. The response should include a description of the
circumstances and conditions underlying these issues as well as the steps being taken or
contemplated by the Coast Guard to prevent similar technical oversight issues from affecting
the remaining surface assets to be modernized or acquired through the Deepwater Program.

Coast Guard Response: Concur



                     110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                    Page 6
                              Comments Specific to Low Smoke Cabling

Coast Guard Comment: Coast Guard indicated that no further action is required for the low smoke
cabling by Integrated Coast Guard Systems or the Coast Guard. According to the Coast Guard, the
cables installed during the modification either meet the low smoke requirement or, if they do not meet
the low smoke requirement, they are covered by the Request for Deviation.

OIG Response: We appreciate Coast Guard's response to the low smoke cabling concerns addressed
in the report. However, Coast Guard's response does not detail the underlying circumstances and
conditions that resulted in: (1) non low smoke cabling being installed prior to approval of the request
for deviation, (2) incorrect certification of compliance with low smoke requirements, and (3) Coast
Guard's subsequent approval of the Request for Deviation without determining the flammability and
toxicity characteristics of the replacement cables being installed. An understanding of the chain of
events that contributed to the aforementioned circumstances is key to the success of any plan that is
put into place to prevent similar mistakes from occurring during the course of the National Security
Cutter, Fast Response Cutter, and Offshore Patrol Cutter acquisitions. Finally, we remain concerned
that Coast Guard is still not fully aware of the extent that the hazards the non low smoke cables
represent should the Coast Guard decide to place the 123' cutters back into operational service.

                        Comments Specific to C4ISR Equipment Installation

Coast Guard Comment: Coast Guard indicated that Integrated Coast Guard Systems is attempting to
determine to what extent the 42 topside equipment installations on each 123' cutter meet the
requirements of the Deepwater contract. According to Coast Guard, they are working to resolve the
contractor's request for deviation in conjunction with the 123' cutter program closeout.

OIG Response: We appreciate Coast Guard's response to the C4ISR topside equipment installation
concerns addressed in the report. However, Coast Guard's response does not detail the underlying
circumstances and conditions that resulted in: (1) the contractor not being aware of the topside
equipment requirements for the 123’ cutter that were identified in the Deepwater contract, and (2) the
contractor incorrectly certifying that the 123’ cutter was compliant with all topside equipment
requirements when in fact, it was not. The response also does not explain what actions are being
taken or planned to resolve the topside equipment issues associated with the short range prosecutor.
Once again, an understanding of the chain of events that contributed to the aforementioned
circumstances is key to the success of any plan that is put into place to prevent similar mistakes from
occurring during the course of the National Security Cutter, Fast Response Cutter and Offshore
Patrol Cutter acquisitions. We remain concerned about the operational readiness of the 123’ cutter
and the short range prosecutor in the event that either vessel is placed back into service and deployed
to regions that exceed the environmental limitations of their C4ISR equipment.




                      110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                     Page 7
             Comments Specific to the Steps Taken to Prevent Similar Oversight Issues

Coast Guard Comment: Coast Guard indicated that it has already taken steps to increase contractual
and program management oversight within all follow on cutter programs modernized or acquired
through the Integrated Deepwater System. Some of the more significant steps that Coast Guard has
indicated that it plans to implement are:

•   Increased the number of staff that provides on-site technical and contractual oversight within its
    Program Management Representative Office, Gulf Coast;
•   Incorporating lessons learned from the 123' cutter modernization program to reduce the risk of
    similar problems with the National Security Cutter, Off Shore Patrol Cutter, and Fast Response
    Cutter programs;
•   Intention to minimize the extent of contractor self-certification of compliance with contractual
    requirements;
•   Designated the Assistant Commandant for Engineering and Logistics Resources as the Technical
    Authority for Deepwater;
•   Consolidation of Coast Guards acquisition activities; and,
•   Use of independent third party evaluations of new asset designs.

Additionally, Coast Guard indicates that it has taken steps to improve contractual oversight in the new
award term criteria, which requires additional reporting mechanisms, includes new IPT performance
measures, and additional insight into the contractor's actions in controlling cost, schedule and
performance.

OIG Response: We appreciate Coast Guard's response, which details the steps it has taken, or plans
to take, to address the technical and program management oversight issues identified in this report. If
fully implemented, these changes should significantly increase the level of technical oversight
exercised over the Deepwater Program. Overall, we find the changes that the Coast Guard has
detailed in its response to this report to be very encouraging and a step in the right direction. We look
forward to working closely with the Coast Guard to continue the improvement of the efficiency,
effectiveness, and economy of the Deepwater Program.

Recommendation #1 will remain open until Coast Guard provides the information behind the
circumstances and conditions that contributed to the low smoke cable and C4ISR external
equipment concerns and the specific steps taken by Coast Guard to prevent reoccurrence of
similar problems.




                      110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                     Page 8
Recommendation #2:
Develop and implement a plan to improve the process for reviewing and adjudicating
contractor Requests for Deviations/Waivers. The plan should ensure that all waiver requests
are resolved prior to implementation and that the rationale underlying these decisions is
formally documented.

Coast Guard Response: Concur

Coast Guard Comment: Coast Guard indicated that it has developed a new Class I Engineering
Change Proposal/Request for Deviation/Request for Waiver Review Process to improve facilitation
and oversight of recommended changes and deviations to existing Deepwater Asset requirements.
The new procedures include a Joint Configuration Control Board made up of technical experts and
contracting officers who will review and resolve Engineering Change Proposals, Request for
Deviations, and Request for Waivers prior to implementation. The new process is scheduled to go
before the Joint Configuration Control Board and then to the Program Management Team during the
second quarter FY07 for approval.

OIG Response: We appreciate Coast Guard's response, which details the steps it has taken to review
and adjudicate Engineering Change Proposals, Request for Deviations, and Request for Waivers. We
find the new procedures detailed in Coast Guard's response to this report to be very encouraging and a
step in the right direction. We look forward to the opportunity to review the new procedures in
conjunction with closing Recommendation #2.

Recommendation #2 will remain open until Coast Guard fully implements the procedures that
it describes in its response and until we have had opportunity to review them.


       Note: We conducted this inquiry into the allegations of the hotline complaint pursuant
       to our authority under the Inspector General Act of 1978, as amended. This inquiry
       was not conducted in accordance with generally accepted government auditing
       standards.




                     110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard

                                                    Page 9
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (1)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (1)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (1)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (1)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (2)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (2)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (2)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (2)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (3)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (4)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (5)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (5)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (5)
110'/123' Maritime Patrol Boat Modernization Project, U.S. Coast Guard
                                                                         Enclosure (5)
       Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


       OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
